Supreme Court, U.S.
FILED

No

-1117-

In the Supreme Court Of The United States

In RE: Dr. Lakshmi Arunachalam, Petitioner
Dr. Lakshmi Arunachalam,
Petitioner
On Petition for a Writ of Mandamus to the
United States Court of Appeals for
the Federal Circuit
Case No. 20-136
PETITION FOR WRIT OF MANDAMUS

Dr. Lakshmi Arunachalam
Self-Represented Petitioner
222 Stanford Avenue
Menlo Park, CA 94025
(650) 690-0995

January 30, 2021

FEB - 1 2021
OFFICE OF THE CLERK

iii

QUESTIONS PRESENTED
1. Whether Justice Barrett, as the last standing
Justice with original jurisdiction, with the same
duty and oath as the lower courts to enforce the
Supreme Law of the Land — this Court’s own stare
decisis Mandated Prohibition from repudiating
Government-issued patent grant contracts,
declared in Trustees of Dartmouth College v.
Woodward (1819), Grant v. Raymond (1832),
Fletcher v. Peck (1810), must accept and grant this
petition for writ of mandamus, in the interest of
justice, whereas:
Chief Justice Roberts recused, seven Justices lost
subject matter jurisdiction, and failed in their
ministerial duty to enforce Dartmouth College and
Fletcher, whereby the courts and USPTO
adversely dominated the process to prevent
Dartmouth College and Fletcher from ever coming
before this Court, leaving the inventor with rights
and no remedy, in violation of the Separation of
Powers1 and Contract Clauses of the Constitution.
1 Congress enacted the America Invents Act (AIA) for the
Executive Branch (USPTO) to perform the function of the
Judiciary by USPTO’s unconstitutionally appointed judges
(APJs) in violation of the Separation of Powers and Contract
Clauses and Appointments Clause of the Constitution— in
contempt of the Mandated Prohibition of the Constitution
— AGAINST REPUDIATING GOVERNMENT ISSUED PATENT CONTRACT
GRANTS
stare decisis Governing Supreme Court

Precedents, as declared by Chief Justice Marshall — to fast-

iv

2. Whether Justice Barrett has a duty to enforce this
Court’s own stare decisis Mandated Prohibition
from repudiating Government-issued patent grant
contracts, as declared in Trustees of Dartmouth
College v. Woodward (1819), Grant v. Raymond
(1832), Fletcher v. Peck (1810) as the Supreme Law
of the Land, fading which she must move against
the lower courts and USPTO for their breach of
their solemn oaths of office in failing to enforce the
Supreme Law of the Land.
3. Where the Federal Circuit disparately reversed
only in the inventor’s case its own Aqua Products’
reversal of Orders that failed to consider “the
entirety of the record” but gave defendant
Microsoft and the USPTO the benefit of its Aqua
Products’ ruling, whether such process disorder
constitutes denial of a fair hearing and equal
protection of the laws, entitling the inventor to
Constitutional redress.

track invalidate granted patents in a corrupted re­
examination process, without considering material prima
facie intrinsic evidence — Patent Prosecution History, which is no
re-examination at all. Congress created the Federal Circuit in
1982 to invalidate granted patents, in contempt of the Mandated
Prohibition from repudiating patent contract grants — the
Supreme Law of the Land.

4. Whether this Court’s Mandated Prohibition from
repudiating Government-issued patent grant
contracts may be reversed by mere mention of
Fletcher by the Federal Circuit in its Order; and if
not, whether the Federal Circuit is under
obligation to enforce it, even after dismissal of the
case in process disorder, particularly where Chief
Justice Marshall declared in Trustees of
Dartmouth College v. Woodward (1819) that there
is no controversy and nothing for the courts to
consider, save enforce the Constitution.
5. Whether the courts and USPTO have the authority
to reject and not enforce Dartmouth College, Grant
v. Raymond or Fletcher, wherein is declared the
Mandated
Prohibition
from
repudiating
Government-issued patent grant contracts, by this
Court as the Supreme Law of the Land.

PREAMBLE
This case is constitutionally more significant than
Marbury v. Madison.
Edison invented electricity. Alexander Graham Bell
invented the telephone. Petitioner, Dr. Lakshmi
Arunachalam, invented the Internet of Things (IoT) —
Web Apps displayed on a Web browser.
The United States Patent and Trademark Office
(USPTO) granted Dr. Arunachalam a dozen patents
that have a priority date of 1995, a time when twoway real-time Web transactions from Web Apps were
non-existent.
Petitioner’s inventions are the backbone of the
nation’s economy, power national security and have
enabled the nation to work remotely during COVID.
Examples of the inventor’s IoT machines are the
millions of Web Apps in Apple’s App Store in Apple’s
iPhone, in Google Play in Android devices, Web
banking Web Apps, healthcare Web Apps, Fitbit,
Zoom, Facebook, Twitter, social networking Web
Apps, to name a few.
The 73-year old, disabled female inventor of color has
not had her day in Court in over a 100 cases.
Chief Justice Roberts recused. Seven Justices in
silence thereof, lost subject matter jurisdiction. They
have a conflict of interest and cannot participate in
this case, they are defendants for failing in their

ii

ministerial duty to uphold their solemn oaths of office
to enforce the Supreme Law of the Land — this
Court’s own stare decisis Mandated Prohibition from
repudiating Government-issued patent
grant
contracts without just compensation to the inventor,
as declared by Chief Justice Marshall in Trustees of
Dartmouth College v. Woodward (1819), Grant v.
Raymond (1832), Fletcher v. Peck (1810) — the Law of
the Case.
The USPTO and courts made it expensive, hazardous
and burdensome for the inventor to have access to
justice, called her names without an iota of evidence,
and oppressed her to keep her silent of their failure to
enforce Dartmouth College and Fletcher, all in
violation of the constitutional provision. Defendants
and the Government unjustly enriched themselves by
trillions of dollars by their continued, unlicensed use
of Dr. Arunachalam’s patents, and importing
infringing products from China, hurting the domestic
industry.

vi

PARTIES TO THE PROCEEDINGS BELOW
Petitioner, Dr. Lakshmi Arunachalam, the inventor
and sole assignee of the patent(s)-in-suit was the
Appellant in the court below. Dr. Lakshmi
Arunachalam is the sole Petitioner in this Court.
Respondent Kronos Incorporated and the United
States were the Respondents in the court below. Only
these two were docketed by the court below as
Respondents. Whereas, Petitioner had listed as
Respondents in the docket as:
(A)

Parties.

Petitioner:

Dr. Lakshmi Arunachalam

Amicus Curiae:

Daniel L. Brune
Murugappan Natesan
Dr. Sherna Madan
Carolyn Carnefix
Pamela Louis-Walden
Phoebe Lewis
Fred Garcia (not docketed by
Federal Circuit)

Respondents:

Kronos Incorporated;
United States;
United States Patent and
Trademark Office/PTAB,
IBM,

vii

SAP America, Inc.,
JPMorgan Chase and Company,
Microsoft Corporation,
Apple, Inc.,
Samsung Electronics America,
Inc.,
Facebook, Inc.,
Alphabet, Inc.,
Fremont Bancorporation
Fremont Bank; Fiserv, Inc.,

and

Wells Fargo Bank, N.A.,
Citi Group,
Inc.,
CitiBank, N.A.,

Citicorp,

Fulton Financial Corporation,
Presidio Bank,
Eclipse Foundation, Inc.,
Citizen’s Financial Group, Inc.,
Exxon Mobil Corporation,
Lyft, Inc.,
Uber Technologies, Inc.,
BNSF Railway Company,
Beal Bank, SSB,
Berry Aviation, Inc.,
Apache Corporation,
Intuit, Inc.,

viii

George Pazuniak, et al,
Sue L. Robinson,
United States District Judge
Leonard P. Stark.
United States District Judge
Edward J. Davila.
United States District Judge
Richard G. Andrews.
United States District Judge
Phyllis J. Hamilton.
United States District Judge
Alan D. Albright.
United States District Judge
R.W. Schroeder.
United States Magistrate Judge
Thomas S. Hixson.
United States Magistrate Judge
Elizabeth D. Laporte.
United States Judge Ryan T.
Holte in the U. S. Court of
Federal Claims.
United States Judges in the U.S.
Court of Appeals for the Federal
Circuit.

ix

RULE 29.6 STATEMENT
Pursuant to this Court’s Rule 29.6, Dr. Lakshmi
Arunachalam is an individual and has no parent
company and no publicly held company owns 10% or
more of its stock.

CERTIFICATE AS TO
RULINGS, AND RELATED CASES
Pursuant to Supreme Court Rules, Self-Represented
Petitioner Dr. Lakshmi Arunachalam makes the
following certification:
(A)

Ruling Under Review.

The U.S. Court of Appeals for the Federal Circuit’s
Denial of Petition for Writ of Mandamus and Denial
of Petition for En Banc Rehearing, without proving
jurisdiction upon challenge, after judges and clerks
lost jurisdiction by breaching their solemn oaths of
office in not enforcing the Constitution and stare
decisis Supreme Court Precedents that are the Law of
the Case and the Law of the Land — the prohibition
of the Constitution mandated by this Court against
repudiating Government-issued contract grants of
any kind — as declared by Chief Justice Marshall in
Trustees of Dartmouth College v. Woodward, 17 U.S.
518 (1819); Fletcher v. Peck, 10 U.S. 87 (1810), Ogden
v. Saunders, 25 U.S. 213 (1827); Grant v. Raymond,
31 U.S. 218 (1832); U.S. v. American Bell Telephone
Company, 167 U.S. 224 (1897).
(B)

Related Cases.

This case has not previously been before this Court.
Dated: January 30, 2021
Dr. Lakshmi Arunachalam
222 Stanford Avenue, Menlo Park, CA 94025
(650) 690-0995, laks22002@yahoo.com
SELF- REPRESENTED PETITIONER

xi

TABLE OF CONTENTS
PREAMBLE; QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDINGS
BELOW........................................................

vi

RULE 29.6 STATEMENT

IX

CERTIFICATE AS TO RULINGS,
AND RELATED CASES................

x

TABLE OF AUTHORITIES

xu

PETITION FOR WRIT OF MANDAMUS....... 1
RELIEF SOUGHT

1

ISSUE PRESENTED

2

FACTS, MEMORANDUM OF LAW,
PROCESS AND PROCEDURE.......

2

REASONS WHY THE WRIT SHOULD
ISSUE......................................................

10

CONCLUSION,

10

APPENDIX TABLE OF CONTENTS

12

APPENDICES
CERTIFICATE OF SELF-REPRESENTED
PETITIONER
VERIFICATION
CERTIFICATE OF SERVICE

xii

TABLE OF AUTHORITIES
CASES:

Page

Ableman v. Booth,
62 U.S. 524 (1859)
Aqua Products Inc. v. Matal,
15-1177 (Fed. Cir.2017)

5
passim

Arthrex, Inc. v. Smith & Nephew, Inc.,
No. 2018-2140, slip op. Fed. Cir.(2019)

5

Cherrington v. Erie Ins. Property and Cas. Co.,
75 S.E. 2d. 508, 513 (W. Va, 2013)......... 8
Festo Corp. v Shoketsu Kinzoku Kogyo Kabushiki
Co.,
535 U.S. 722 (2002)
5
Fletcher v. Peck,
10 U.S. 87 (1810)

passim

Fourco Glass Co. v. Transmirra Products Corp.,
353 U.S. 222-226 (1957)........................... 9
Grant v. Raymond,
31 U.S. 218 (1832)

passim

Kumar v. Ovonic Battery Co., Inc. And Energy
Conversion Devices, Inc., Fed. Cir. 02-1551,
-1574, 03-1091 (2003), 351 F.3d 1364, 1368,
69. (2004).............................................................

5

xiii

Ogden v. Saunders,
25 U.S. 213 (1827)

1

Sterling v. Constantin,
287 U.S. 397 (1932)

5

Trustees of Dartmouth College v. Woodward,
17 U.S. 518 (1819)
passim
TC Heartland LLC v. Kraft Foods Group Brands
LLC,
581 U.S. 16-341 (1917), 137 S. Ct. 1514
9
U.S. v. American Bell Telephone Company,
167 U.S. 224 (1897)............................

1

U.S. v. Burr,
25 F. Cas. 55, 161 (CCD, Va. No. 14693)....6
Virnetx Inc. v. Cisco Systems and USPTO
(intervenor)
Fed. Cir. (5/13/2020)

5

1

PETITION FOR A WRIT OF MANDAMUS
Petitioner Dr. Lakshmi Arunachalam (“Dr.
Arunachalam”), a 73-year old disabled ethnic female
of color, thought leader and inventor of a dozen
patents on the Internet of Things (IoT) — Web Anns
displayed on a Web browser, with a priority date of
11/13/95, hereby files this Petition for a Writ of
Mandamus to the Federal Circuit from its Orders
dated 12/28/2020 and 10/19/2020 denying her Petition
for Writ of Mandamus to the District Courts and
PTAB to do their ministerial duty to uphold their
solemn oaths of office and enforce the Constitution, as
declared by Chief Justice Marshall in stare decisis
Supreme Court precedents. This Petition also serves
as a Memorandum of Law. The Federal Circuit’s
Orders are void by overation of law.
RELIEF SOUGHT
Petitioner respectfully requests that this Court order
the U.S. Court of Appeals for the Federal Circuit to do
its ministerial duty to uphold its solemn oaths of office
and enforce the stare decisis Mandated Prohibition
declared by this Court’s Chief Justice John Marshall
against repudiating Government-issued patent
contract grants in Trustees of Dartmouth College v.
Woodward, 17 U.S. 518 (1819); Fletcher v. Peck, 10
U.S. 87 (1810), Ogden v. Saunders, 25 U.S. 213
(1827); Grant v. Raymond, 31 U.S. 218 (1832); U.S. v.
American Bell Telephone Company, 167 U.S. 224
(1897) - the Supreme Law of the Land and Law of the
Case and in turn, for the Federal Circuit to order the
inferior courts and USPTO to do their ministerial duty

2

to uphold their solemn oaths of office and to enforce
the Mandated Prohibition.
ISSUE PRESENTED
The courts and USPTO adversely dominated the
process to prevent Dartmouth College, Fletcher, et al
from ever coming before this Court, leaving the
inventor with rights and no remedy.
Justice Barrett, as the last standing Justice with
original jurisdiction, with the same duty and oath as
the lower courts to enforce the Supreme Law of the
Land — this Court’s own stare decisis Mandated
Prohibition from repudiating Government-issued
patent grant contracts, declared in Trustees of
Dartmouth College v. Woodward (1819), Grant v.
Raymond (1832), Fletcher v. Peck (1810), et al must
grant this petition for writ of mandamus, in the
interest of justice, whereas Chief Justice Roberts
recused, and seven Justices lost subject matter
jurisdiction. Whether Justice Barrett takes this case
or not, with or without quorum, she is under solemn
oath duty to move against the inferior courts who have
breached their solemn oaths of office and failed to
enforce the Supreme Law of the Land — this Court’s
own stare decisis Mandated Prohibition from
repudiating Government-issued patent
grant
contracts, declared in Trustees of Dartmouth College
v. Woodward (1819), Grant v. Raymond (1832),
Fletcher v. Peck (1810), et al.
FACTS, MEMORANDUM OF LAW, PROCESS
AND PROCEDURE
1. Clerks’ And Judges’ Adversely Dominated
Process Disorder, Without Jurisdiction,

I

3

Aiding And Abetting Antitrust, In RICO With
Defendants:
to the prejudice of good order, discipline and justice, of
a nature to bring discredit upon the judiciary and
United States, violating federal and state laws and
the Constitution. Judges acted as Attorney to
Defendants, Ordered them to not answer Petitioner’s
Complaint and Appeal, to Default, dismissed the case
without a hearing, and ordered them to untimely
move for attorney’s fees of $148K for not filing an
answer to the Complaint and no injury after 2 years
after appeal at the Supreme Court. Petitioner is “the
prevailing party.” not Defendants, even by the District
and Appellate Courts’ procedurallv foul process.
2. Courts Failed to Enter Default and Default
Judgment in Petitioner’s Favor, Upon
Request, when the Defendants Did Not File
an Answer to Petitioner’s Complaint or
Appeal, As Ordered by Judges Not to Answer
—Petitioner Won the Case by Default.
Defendants default. Clerks refuse to enter default and
default judgment. Judges dismiss the case without a
hearing. Defendants’ lack of response is a Default,
after being put on notice. Their silence “comprises
their stipulation and confession jointly and severally
to acceptance of all statements, terms, declarations,
denials and provisions herein as facts, the whole
truth, correct and fully binding on all parties.” “Upon
Default, all matters are settled res judicata and stare
decisis.” “Default comprises an estoppel of all actions,
administrative and judicial” by courts, PTAB and
Defendants against Petitioner.

4

3. Judges And Clerks Abandoned Their Post—
Refused To Prove Jurisdiction Upon
Challenge.
Judge Andrews and PTAB Judges McNamara/Siu
admitted they bought direct stock in Defendant
JPMorgan Chase & Co. and Microsoft, in the Court
docket, failed to recuse, breached their solemn oaths,
and refused to enforce the Supreme Law of the Land
— this Court’s own stare decisis Mandated Prohibition
from repudiating Government-issued patent grant
contracts, declared in Trustees of Dartmouth College
v. Woodward (1819), Grant v. Raymond (1832),
Fletcher v. Peck (1810), et al. Upon challenge to prove
jurisdiction after losing jurisdiction in all of
Petitioner’s cases, Judges and clerks failed to prove
jurisdiction.
4. Judges’ Retaliatory Ex-Actions Against
Petitioner, Maliciously, Willfully, Knowingly
And Recklessly Defamed Her As “Frivolous”
And “Malicious” Without An Iota Of
Evidence, for 73-Year Old, Disabled Inventor
Fighting For Her Property Rights And
Constitutional Rights, For Requesting The
Judges And Clerks To Do Their Ministerial
Duty To Abide by their Solemn Oaths and
Enforce The Mandated Prohibition - the Law
Of The Case And Law Of The Land And To
Consider Patent Prosecution History —
Material, Intrinsic Prima Facie Evidence
That Her Claim Terms Are Not Indefinite
And That Her Patent Claims Are Not Invalid,
As Per Stare Decisis Supreme Court
Precedents,
In
Accord
With
The
Constitution:

5

in Festo Corp. v Shoketsu Kinzoku Kogyo Kabushiki
Co., 535 U.S. 722 (2002); Trustees of Dartmouth
College v. Woodward, 17 U.S. 518 (1819); Grant v.
Raymond, 31 U.S. 218 (1832); U.S. v. American Bell
Telephone Company, 167 U.S. 224 (1897); Fletcher v.
Peck, 10 U.S. 87 (1810); Arunachalam v. Lyft, 198029, voiding all Orders in all of Petitioner’s
Supreme Court cases, for want of jurisdiction; Cooper
v. Aaron, 358 U.S. 1 (1958); Ableman v. Booth, 62 U.S.
524 (1859); Sterling v. Constantin, 287 U.S. 397 (1932)
“no avenue of escape from the paramount
authority
of
the... Constitution... when
...exertion of...power... has overridden private
rights secured by that Constitution, the subject
is necessarily one for judicial inquiry
...against... individuals charged with the
transgression,"
and per Federal Circuit precedents in Kumar v.
Ovonic Battery Co., Inc. And Energy Conversion
Devices, Inc., Fed. Cir. 02-1551, -1574, 03-1091 (2003),
351 F.3d 1364, 1368, 69. (2004); Aqua Products Inc. v.
Matal, 15-1177 (Fed. Cir.2017); Arthrex, Inc. v. Smith
& Nephew, Inc., No. 2018-2140, slip op.
(Fed.Cir. 10/31/2019) applies to: “All agency
actions rendered by those
[unconstitutionally
appointed] APJs,” Virnetx Inc. v. Cisco Systems and
USPTO (intervenor) (Fed. Cir. 5/13/2020).
5. Expert Opinions of Stanford’s Dr. Markus
Covert and Dr. Jay Tenenbaum in ReExaminations of Petitioner’s Patents Prove
She Is Not “Frivolous” Or “Malicious.”
See Appendix 3a and 4a: Exhibits A and B.

6

6. The Only People Who Have Been “Frivolous”
And “Malicious” Are The Adjudicators, As
Chief Justice Marshall Declared In Trustees
Of Dartmouth College V. Woodward (1819):
Courts’/PTAB’s rescinding act has the effect of an ex
post facto law and forfeits Petitioner’s estate “for a
crime NOT committed bv” her, “but bv the
Adjudicators”
bv
their
Orders
which
“unconstitutionally impaired” the contract with the
inventor, which, “as in a conveyance of land, the court
found a contract that the grant should not be
revoked.” All court Orders in Petitioner’s cases violate
the U.S. Constitution, inconsistent with the “faithful
execution of the solemn promise made by the United
States” with the inventor and constitute treason. See
Appendix 5a: Exhibit C — Daniel Brune’s Amicus
Curiae Brief in Case 20-136, and Appendix 6a: Exhibit
D - Fred Garcia’s Amicus Curiae Brief in Case 20-136,
withheld by the Federal Circuit Court Clerks and not
docketed. Chief Justice Marshall declared that any
acts and Orders by the Judiciary that impair the
obligation of the contract within the meaning of the
Constitution of the United States “are consequently
unconstitutional and void.” Chief Justice Marshall
declared that war was actually levied under such
circumstances in U.S. v. Burr, 25 F. Cas. 55, 161
(CCD, Va. No. 14693).
7. This Entire Case revolves around the
Judiciary Avoiding Enforcing Dartmouth
College, Fletcher, et al At All Costs. Why? —
Because Enforcing It Exposes The Entire

7

Patent System. Operating As A Criminal
Enterprise. Defrauding The Public.
Courts dismissed Petitioner’s Cases without a hearing
for no valid reason with False Official Statements,
while Chief Justice Roberts admitted by his recusal on
5/18/20 in 19-8029 that the facts and the law are on
Petitioner’s side. Courts cannot prove Petitioner
“abused the process,” if there is even a process, much
less “repeatedly” so, as the courts collusively allege
arbitrarily and capriciously, without any evidence and
have concertedly manufactured a fact, in a pattern,
with the common treasonous objective of not enforcing
Dartmouth College, and Fletcher. Courts have been
demeaning and defaming Petitioner for no good
reason and suppressing her to silence her from
exposing their culpability and have exhibited bias in
a reckless manner. The Federal Circuit Court clerks
and judges committed overt acts of hate crime against
an elder, took away her ECF filing in adversely
dominated process disorder to prevent Dartmouth
College and Fletcher ever coming before the Supreme
Court as that would expose the collusive fraud of the
USPTO, the Federal Circuit and Congress in breach
of public trust in taking granted patents without just
compensation to the inventor, withheld documents
and failed to docket Petitioner’s filings, tampered with
the public record, granted her fee waiver in all of
Petitioner’s cases except in the underlying case 20136, and teased and harassed her and made False
Official Statements that Petitioner’s credit cards did
not work, when she proved that they indeed worked.

8

8. Courts Cannot Determine That Petitioner’s
Action Was “Frivolous, Unreasonable, Or
Without Foundation."
Judges ’and Clerks’ EXACTIONS were clearly in
excess of their jurisdiction, to deprive Petitioner of
her federally protected rights — to be free from a
conspiracy "to prevent, by force, intimidation, or
threat" her First Amendment rights to Petition the
Government for Grievance; and from deprivations "of
equal protection of the laws, or of equal privileges and
immunities under the laws." The courts have not
proven bad faith or malice on Petitioner’s part nor
that any particular claim is frivolous, nor can they.
District and Appellate Courts’ and PTAB’s procedural
irregularities and falsely accusing Petitioner as
“vexatious” for defending the Constitution and their
cruel and unusually punitive intentions are well
documented. The courts denying Petitioner a fair
hearing to cover up their own culpability and
lawlessness — bespeaks of the courts and PTAB
biased against Petitioner, and not doing their solemn
oath duty to enforce the Law of the Land. Judges’ and
clerks’ outrage at Petitioner reveals “a ‘deep-seated ...
antagonism that would make fair judgment
impossible.’ Liteky, 510 U.S. at 555.” Judges’ Orders
of a false collateral estoppel without considering
Patent Prosecution History and without applying
stare decisis Supreme Court precedents are not legally
sound and are not precedent. Cherrington v. Erie Ins.
Property and Cas. Co., 75 S.E. 2d. 508, 513 (W. Va,
2013).
9. Special Circumstances Warrant Mandamus.
Judges Did Not Find Actual Injury.

9

Judges did not allow Petitioner a fair hearing or fair
procedural or substantive due process. Courts made it
unreasonably burdensome, downright dangerous, and
expensive for Petitioner to have access to the Court on
the question of due process itself. Courts denied
Petitioner fair access to process. Petitioner has no
evidence that courts and PTAB have not violated
Petitioner’s rights.
10. Defendants Plagiarized Each Other. They
Had Zero Damages. No Injury. Fees Are Zero.
Defendants and the Government are unjustly
enriched by trillions of dollars. Petitioner was injured
by trillions of dollars in financial damages and
personal injury to her health. Petitioner is the
aggrieved party, entitled to damages, attorneys’
fees, not the Defendants.
11. The Court Lacks Jurisdiction, Except
Justice Barrett, The Sole Justice With
Jurisdiction.
While Chief Justice Roberts recused, seven Justices
remained silent. They lost jurisdiction.
In TC Heartland LLC v. Kraft Foods Group Brands
LLC, 581 U.S. 16-341 (1917), 137 S. Ct. 1514, the
Court ruled against the Federal Circuit not abiding by
the Court’s precedential rulings in Fourco Glass Co. v.
Transmirra Products Corp., 353 U.S. 222—226 (1957)
for a century. The Court must take Judicial Notice of
its own stare decisis precedents in accord with the
Contract Clause of the Constitution. Courts have been
in breach of their solemn oath duty to enforce the Law
of the Land. Why? To acknowledge Fletcher is to admit

10

deceiving the public for decades in a collusive fraud
between the Judiciary, USPTO, the Legislature and
Corporate Infringers. So the courts manufactured a
false reason, calling Petitioner names, that Petitioner
is “malicious,” “frivolous” and has “repeatedly abused
the process,” for the courts’ own misconduct. The
courts damaged Petitioner’s pristine reputation and
impeccable credentials. Judges and clerks have lost
their immunity, in their wanton, willful omissions to
deprive Petitioner of her fair access to process and to
the Court.
REASON WHY THE WRIT SHOULD ISSUE
Chief Justice Marshall declared a Government-issued
“grant is a contract,” and “The Law of this case is the
law of all. ...is applicable to contracts of all
descriptions...there is nothing for the court to act
upon,” save enforce the Constitution — the Mandated
Prohibition, without impairing the obligation of
contracts in accord with the Constitution. The courts
and USPTO, in cohort with the Defendants, have
made a concerted effort to prevent the government
from functioning the way it should function. They
committed six independent violations of the
Constitution. They violated the free speech provision.
They violated the bill of attainder. They violated due
process, on and on and on. They betrayed the oaths
they swore to defend the United States Constitution
by impairing the obligation of contracts in accord with
the Constitution. Inventors have been injured
physically and financially for standing for our
Constitution and our country, but they should never

11

face such peril at the hands of the USPTO, Judiciary
to hurt our democracy, and to dishonor our
Constitution.
CONCLUSION
Wherefore, the Court must grant mandamus, failing
which Justice Barrett must move against the USPTO
and inferior court clerks and Judges for breaching
their solemn oaths of office in faffing to enforce the
Supreme Law of the Land.
Respectfully submitted,

January 30, 2021

Dr. Lakshmi Arunachalam
Pro Se Petitioner
222 Stanford Avenue, Menlo Park, CA 94025
(650) 690-0995; laks22002@vahoo.com
Pro Se Petitioner
Dr. Lakshmi Arunachalam

